No. ___________
I N TH E SU PR EM E CO U RT O F TH E U N ITED STATE S
________________________________
K AREN G AG ARI N ,
v.
UNITED STATES O F AM ERIC A,
________________________________

Petitioner ,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit
________________________________
A P PEND IX TO PE T IT ION FO R A WR IT O F CE RT IO R AR I
STEVEN G. KALAR
Federal Public Defender
C A R M E N A. S M A R A N D O I U *
Assistant Federal Public Defender
450 Golden Gate Avenue, 19th Floor
San Francisco, California 94102
(415) 436-7700

*Counsel of Record for Petitioner

TABLE OF CONTENTS

United States v. Gagarin, No. 18-10026, Opinion (9th Cir. Feb. 13, 2020)............... 1a
United States v. Gagarin, No. 18-10026, Order Denying Rehearing (9th Cir. Oct. 1,

2020) ........................................................................................................................... 26a

United States v. Halali et al., No. 14-CR-00627 SI, Order Denying Defendants’

Post-Trial Motions (N.D. Cal. July 28, 2017) ........................................................... 27a

ii

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 1 of 25

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 18-10026

v.

D.C. No.
3:14-cr-00627-SI-4

KAREN GAGARIN,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Northern District of California
Susan Illston, District Judge, Presiding
Argued and Submitted September 9, 2019
San Francisco, California
Filed February 13, 2020
Before: Ronald M. Gould, Carlos T. Bea, and
Michelle T. Friedland, Circuit Judges.
Opinion by Judge Gould;
Concurrence by Judge Friedland

1a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 2 of 25

2

UNITED STATES V. GAGARIN
SUMMARY *
Criminal Law

The panel affirmed a conviction for aggravated identity
theft under 18 U.S.C. § 1028A(a)(1), a three-level sentence
enhancement, and the restitution order in a case in which the
defendant and her co-conspirators participated in a scheme
to defraud a life insurance company by submitting fraudulent
insurance applications on behalf of individuals who, in
general, did not intend to apply for life insurance or know
that their identifying information was being used.
The panel rejected the defendant’s challenges to the
district court’s denial of her motion for judgment of acquittal
on the aggravated identity theft count.
The panel held that the defendant “used” a means of
identification under the meaning of § 1028A(a)(1), where
her forgery of her cousin’s signature on a fraudulent
application was central to the fraud and “furthered and
facilitated” its commission.
The panel rejected the defendant’s contention that in
order to show that she acted “without lawful authority” as
required by the statute, the Government must show that her
use of the means of identification was “itself illegal.” The
panel explained that the defendant’s use of her cousin’s
identity during and in relation to the wire fraud was
sufficient.
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
*

2a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 3 of 25

UNITED STATES V. GAGARIN

3

The panel wrote that the Seventh Circuit’s interpretation
of “another person” in United States v. Spears, 729 F.3d 753
(7th Cir. 2013) (en banc), to mean “a person who did not
consent to the use of the means of identification” contradicts
this court’s holding in United States v. Osuna-Alvarez, 788
F.3d 1183, 1185-86 (9th Cir. 2015) (per curiam). The panel
thus held that even if the defendant had her cousin’s consent
to file an insurance application for her, the panel would
follow this circuit’s precedent to hold that the defendant used
the means of identification of “another person” by using the
identification of another “actual person.”
The panel held that the district court did not abuse its
discretion and commit significant procedural error by
imposing a three-level “manager or supervisor”
enhancement under U.S.S.G. § 3B1.1(b).
Upholding the restitution order, the panel wrote that
there is no indication that the district court employed an
erroneous valuation methodology that focused on a criterion
other than the actual losses of the victim, and held that the
district court did not abuse its discretion by declining to
deduct the purported value of “back-end” accounts from the
restitution award. The panel declined to second-guess the
district court’s imposition of joint and several liability, and
rejected as unavailing the defendant’s contention that the
restitution schedule is internally inconsistent.
Concurring except as to the penultimate paragraph of
Part II.C, Judge Friedland wrote that she is disinclined to
criticize the analysis of the unanimous en banc Seventh
Circuit decision in Spears “on its own terms,” as the majority
does.

3a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 4 of 25

4

UNITED STATES V. GAGARIN
COUNSEL

Carmen A. Smarandoiu (argued), Chief, Appellate Unit;
Candis Mitchell, Assistant Federal Public Defender; Steven
G. Kalar, Federal Public Defender; Office of the Federal
Public Defender, San Francisco, California; for DefendantAppellant.
Kirstin M. Ault (argued), Assistant United States Attorney;
Merry Jean Chan, Chief, Appellate Section, Criminal
Division; David L. Anderson, United States Attorney;
United States Attorney’s Office, San Francisco, California;
for Plaintiff-Appellee.
OPINION
GOULD, Circuit Judge:
Defendant Karen Gagarin was convicted of conspiracy
to commit wire fraud, wire fraud, and aggravated identity
theft. The district court sentenced her to a total of 36 months
in prison, after concluding that a three-level “manager or
supervisor” sentencing enhancement applied to Gagarin’s
role in the scheme to defraud the American Income Life
Insurance Company (AIL). It also imposed a restitution
order, which held Gagarin jointly and severally liable with
her convicted co-conspirators for the full loss suffered by
AIL. On appeal, Gagarin challenges the district court’s
denial of her post-trial motion for a judgment of acquittal on
the aggravated identity theft count, its imposition of the
three-level sentencing enhancement, and the restitution
order. We affirm.

4a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 5 of 25

UNITED STATES V. GAGARIN

5

I.
In late 2011, Benham Halali devised a scheme to defraud
AIL of millions of dollars. Halali ran the San Jose, Fresno,
Roseville, and Concord offices of the Jatoft-Foti Agency
(JFA), the exclusive California sales agent of AIL. Between
September 2011 and Spring 2012, Halali and coconspirators in those offices, all independent contractors of
AIL, submitted hundreds of fraudulent insurance
applications to AIL on behalf of individuals who, in general,
did not intend to apply for life insurance or know that their
identifying information was being used. Karen Gagarin was
a General Agent with sales and managerial responsibility in
JFA’s San Jose office, and she ran the office when Halali
was away. It is undisputed that she knowingly participated
in the fraudulent scheme.
The conspiracy took advantage of AIL’s system of
compensating agents for insurance policy sales. For each
policy an agent purportedly sold, the agent received
advanced commissions and bonuses from AIL according to
a specified percentage of the premiums that the policy would
be expected to generate during the year. The conspirators
then paid about four months of premiums on the fraudulent
policies, from hundreds of different bank accounts opened
for that purpose, before defaulting. According to AIL’s
compensation structure, policies that lapsed before the end
of four months resulted in the agents being “charged back”
for their unearned advances, but policies that lapsed after
four months would result in only a debit of the unearned
value against the agents’ “back-end” accounts. These backend accounts served as a retirement account of sorts,
representing the net earnings an agent could anticipate
collecting after leaving the agency, subject to certain
conditions. By keeping the fraudulent policies active for

5a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 6 of 25

6

UNITED STATES V. GAGARIN

four months, conspiring agents were able to pocket the
difference between their advanced compensation and the
premiums they paid on the policies. During the course of
this conspiracy, the conspirators submitted about
700 fraudulent applications, although not all applications
resulted in issued policies.
To convince AIL of the legitimacy of the fraudulent
policies, the conspirators forged electronic signatures on the
insurance applications and gave other identifying
information of the purported applicants. The conspirators
also misrepresented information about the applicants on the
insurance applications to increase the likelihood that AIL
would grant a policy. When AIL made phone calls to verify
the applicant’s identity, the conspirators, including Gagarin,
would impersonate the purported applicant from dozens of
cell phones purchased for that purpose. When AIL requested
a medical examination to determine eligibility for insurance,
the conspirators engaged in a variety of tactics to accomplish
the medical examination, including creating fake drivers’
licenses to impersonate applicants during the medical
examinations. Halali also encouraged agents to sign up
friends and family members for fraudulent policies by
offering them the opportunity to get a free medical exam.
When Gagarin was not managing JFA’s San Jose office
in Halali’s absence, her day-to-day responsibilities included
selling policies for AIL and supervising certain agents within
the office. On several occasions, Gagarin submitted
insurance applications that falsely listed these agents as the
“writing agent”—the agent who had executed the policy.
Because the policy would then be registered officially in
those agents’ names, Gagarin would ask them to reimburse
her for the advanced commissions and bonuses they were
paid on those policies.

6a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 7 of 25

UNITED STATES V. GAGARIN

7

In September 2011, AIL received an electronic insurance
application from Melissa Gilroy, Gagarin’s cousin.
Although not listed as the writing agent, by all accounts
Gagarin was the agent who executed and submitted the
application. The application contained false information
about Gilroy’s employment status, salary, and the nature of
her relationship with the intended beneficiary. Although the
application contained Gilroy’s electronic signature
indicating that she was the payor of the policy, the bank
account connected to the policy actually belonged to Steven
Nguyen—the brother of an admitted co-conspirator in the
scheme—and was later replaced by a bank account held in
Gagarin’s name. Elsewhere, the application contained
Gilroy’s electronic signature, purportedly certifying that all
information in the application was true and correct to the best
of her knowledge. The requested policy coverage was for
more than $300,000, at a monthly premium of $236.
Pursuant to a grant of immunity, Gilroy testified at trial
that she had asked her cousin Gagarin to “sign [her] up for a
policy” after experiencing a health scare. Gilroy further
testified that she had asked Gagarin to state falsely that
Metro PCS was her place of employment because she
worried she would be denied insurance if AIL knew she was
unemployed. At the same time, Gilroy testified that she had
intended to pay for the policy herself and never asked
Gagarin to pay for it through anyone else’s bank account.
Nor had she asked Gagarin to lie about the nature of her
relationship to the named beneficiary. Gilroy also stated that
she never discussed the type of coverage, the coverage
amount, or the premium amount with Gagarin. Although she
had previously worked for AIL for a few months, she stated
that she was not familiar with AIL’s new electronic
application process and that she had never seen the

7a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 8 of 25

8

UNITED STATES V. GAGARIN

application in question, let alone typed or otherwise
electronically signed her name on it.
In December 2014, a grand jury indicted five people—
Benham Halali, Ernesto Magat, Kraig Jilge, Karen Gagarin,
and Alomkone Soundara—on charges of conspiracy to
commit wire fraud under 18 U.S.C. § 1349; wire fraud under
18 U.S.C. § 1343; and aggravated identity theft under
18 U.S.C. § 1028A. Jilge and Soundara pleaded guilty
pursuant to a cooperation agreement, while Halali, Magat,
and Gagarin went to trial. At trial, the jury found Halali,
Magat, and Gagarin guilty of all charges. Gagarin was found
guilty of fourteen counts of wire fraud, including Count 10
in connection with the Gilroy insurance application. The
Gilroy application also was the basis for Gagarin’s Count 24
conviction for aggravated identity theft.
Gagarin filed a post-trial motion for a judgment of
acquittal, pursuant to Rule 29 of the Federal Rules of
Criminal Procedure, contending that insufficient evidence
supported her wire fraud conviction under Count 10 and her
aggravated identity theft conviction under Count 24. The
district court denied the motion on both counts.
At sentencing, the district court concluded that a threelevel sentencing enhancement for having a “manager or
supervisor” role applied to Gagarin on the underlying fraud
counts, pursuant to § 3B
1.1(b) of the United States
Sentencing Guidelines. Finding, nonetheless, that Gagarin
was “far less culpable than the other two,” the court
sentenced her to only 12 months of incarceration for the
conspiracy and fraud counts. In addition, the court
sentenced Gagarin to the mandatory minimum 24 months for
the aggravated identity theft conviction, to run consecutively
with the 12-month sentence, for a total of 36 months in
prison.

8a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 9 of 25

UNITED STATES V. GAGARIN

9

The district court also held Gagarin jointly and severally
liable with Halali and Magat for restitution to AIL for its
losses, which the court assessed at $2,837,791.93,
representing the total amount of advances AIL had paid out
to the conspirators, less the money AIL had already
recovered.
In this timely appeal, Gagarin challenges the district
court’s denial of her post-trial motion for acquittal on the
aggravated identity theft count, the court’s imposition of the
three-level sentencing enhancement on the fraud claims, and
the court’s order of restitution. We have jurisdiction
pursuant to 28 U.S.C. § 1291.
II
We review de novo a district court’s denial of a Rule 29
motion for a judgment of acquittal. United States v. Grovo,
826 F.3d 1207, 1213 (9th Cir. 2016). Upon a defendant’s
motion, the court “must enter a judgment of acquittal of any
offense for which the evidence is insufficient to sustain a
conviction.” Fed. R. Crim. P. 29(a). In determining whether
evidence was insufficient to sustain a conviction, we
consider whether, “after viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond
a reasonable doubt.” United States v. Nevils, 598 F.3d 1158,
1163–64 (9th Cir. 2010) (en banc) (quoting Jackson v.
Virginia, 443 U.S. 307, 319 (1979)).
Here, we consider whether, viewing the evidence in the
light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of aggravated
identity theft beyond a reasonable doubt. In relevant part,
“[w]hoever, during and in relation to any felony violation
enumerated in subsection (c),” including wire fraud,

9a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 10 of 25

10

UNITED STATES V. GAGARIN

“knowingly transfers, possesses, or uses, without lawful
authority, a means of identification of another person” is
guilty of aggravated identity theft. 18 U.S.C. § 1028A(a)(1).
Gagarin claims that three essential elements were not
satisfied, contending that (1) she did not “use” a means of
identification “during and in relation to” the commission of
wire fraud under the terms of the statute, (2) she did not act
“without lawful authority,” and (3) she did not use the means
of identification of “another person.” We review questions
of statutory interpretation de novo. United States v. OsunaAlvarez, 788 F.3d 1183, 1185 (9th Cir. 2015) (per curiam).
The parties dispute, as a threshold matter, whether a rational
trier of fact could have concluded that, contrary to Gilroy’s
testimony, Gilroy never requested Gagarin’s help applying
for insurance. We do not resolve this dispute because,
assuming arguendo that any rational trier of fact would have
determined that Gilroy did make such a request, we conclude
nonetheless that sufficient evidence supports each element
of the offense.
A
After oral arguments in this appeal, another panel of our
court addressed the meaning of “use” under the aggravated
identity theft statute. See United States v. Hong, 938 F.3d
1040, 1049–51 (9th Cir. 2019). Drawing on previous
treatment of this term in the context of § 1028A by the First
and Sixth Circuits, we held in Hong that the owner of several
massage and acupuncture clinics did not “use” a means of
identification when, in order to fraudulently qualify for
Medicare reimbursement, he merely misrepresented the
nature of treatment that actual patients of his received. Id. at
1051. We reasoned that “[n]either Hong nor the physical
therapists [complicit in his scheme] ‘attempt[ed] to pass
themselves off as patients.’” Id. (quoting United States v.

10a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 11 of 25

UNITED STATES V. GAGARIN

11

Berroa, 856 F.3d 141, 156 (1st Cir. 2017)). Nor did they
“‘purport[] to take some other action on another person’s
behalf’ through impersonation or forgery.” Id. at 1051 n.8
(quoting United States v. Valdez-Ayala, 900 F.3d 20, 35 (1st
Cir. 2018)). As a result, the defendant did not “use” a means
of identification “during and in relation to” his commission
of health insurance fraud. Id. at 1051. In reaching this
holding, Hong relied on a line of cases from the Sixth Circuit
which that court has summarized as establishing that “[t]he
salient point is whether the defendant used the means of
identification to further or facilitate” the predicate felony for
the aggravated identity theft charge. United States v.
Michael, 882 F.3d 624, 627–28 (6th Cir. 2018)
(summarizing the circuit’s approach). 1
Here, Gagarin purported to take action on behalf of her
cousin Melissa Gilroy, and in so doing used Gilroy’s identity
to further the fraudulent insurance application. As Gilroy
testified, Gilroy never asked Gagarin to sign an insurance
application in her name, nor did the two ever discuss
specifics, such as the type or amount of coverage Gilroy
wanted or the premium she would be willing to pay. Instead,
they discussed in a general sense Gilroy’s desire that
Gagarin help her find an insurance policy, and Gilroy never
saw, let alone signed, the particular application that was
submitted to AIL. Viewing the facts in the light most
favorable to the prosecution, Nevils, 598 F.3d at 1163–64,
the inescapable inference is that Gagarin forged Gilroy’s
signature in two places on that application. The application
1
In Michael, the Sixth Circuit held that the defendant “used” a
means of identification when he “fashion[ed] a fraudulent submission
out of whole cloth.” 882 F.3d at 629. It noted that, if he had merely
“inflated the amount of drugs he dispensed, the means of identification
. . . would not have facilitated the fraud.” Id.

11a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 12 of 25

12

UNITED STATES V. GAGARIN

contained falsehoods and constituted the basis of Gagarin’s
Count 10 wire fraud conviction, which is unchallenged on
appeal. At the same time, Gagarin’s forgery of Gilroy’s
signature falsely conveyed the impression that Gilroy herself
certified that “the answers set forth above are full, complete
and true to the best of my knowledge and belief.”
Unlike Hong, in which the defendant submitted
documents about his own eligibility for certain benefits,
938 F.3d at 1049–51, Gagarin “attempt[ed] to pass [herself]
off” as her cousin through forgery and impersonation. Id.
at 1051; see also United States v. Blixt, 548 F.3d 882, 886
(9th Cir. 2008) (holding “that forging another’s signature
constitutes the use of that person’s name and thus qualifies
as a ‘means of identification’ under 18 U.S.C. § 1028A”).
As our sister circuits have recognized, “the use of another
person’s means of identification makes a fraudulent claim
for payment much harder to detect,” United States v.
Medlock, 792 F.3d 700, 707 (6th Cir. 2015) (quoting United
States v. Abdelshafi, 592 F.3d 602, 610 (4th Cir. 2010)), and
Gagarin’s forgery of her cousin’s signature did just that by
obscuring her own role in the fraudulent application. Her
use of Gilroy’s means of identification was thus central to
the fraud and “furthered and facilitated” its commission. For
these reasons, we hold that Gagarin’s actions constituted
“use” under the meaning of the aggravated identity theft
statute.
B
Gagarin also contends that she did not act “without
lawful authority,” a required element of aggravated identity
theft. We disagree. We have held that “despite its title,
§ 1028A does not require theft as an element of the offense.”
Osuna-Alvarez, 788 F.3d at 1185. We have further held that
§ 1028A’s prohibition of the use of another person’s means

12a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 13 of 25

UNITED STATES V. GAGARIN

13

of identification “without lawful authority” “clearly and
unambiguously encompasses situations . . . where an
individual grants the defendant permission to possess his or
her means of identification, but the defendant then proceeds
to use the identification unlawfully.” Id.
Gagarin acknowledges that, in light of Osuna-Alvarez,
even if Gilroy consented to the submission of the insurance
application, this would not mean that Gagarin had “lawful
authority.” Gagarin argues that, in order to show that she
acted “without lawful authority,” the Government must
show that her use of the means of identification was “itself
illegal.”
We disagree. Whether a particular use was “itself
illegal” relates to the degree of connection between the use
of the identity and the predicate felony. But the statute
already contains language about the required nexus: the use
must be “during and in relation to” specified unlawful
activity. Here, for the reasons stated above, Gagarin used
Gilroy’s identity during and in relation to the wire fraud that
Gagarin does not challenge occurred here. Gagarin has not
shown that use “without lawful authority” required more in
this case.
C
Next, Gagarin invites us to adopt the Seventh Circuit’s
interpretation of “another person.” The Seventh Circuit has
construed the phrase “another person” in the aggravated
identity theft context to mean “a person who did not consent
to the use of the ‘means of identification.’” United States v.
Spears, 729 F.3d 753, 758 (7th Cir. 2013) (en banc). The
Seventh Circuit found ambiguous the question of whether
“another person” refers to a “person other than the
defendant” or a “person who did not consent to the

13a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 14 of 25

14

UNITED STATES V. GAGARIN

information’s use” and therefore resorted to several tools of
statutory interpretation to resolve the perceived ambiguity.
Id. at 756–58. It was concerned that a broad construction of
the phrase “would convert most identity fraud into identity
theft and add a mandatory, consecutive, two-year term to
every conviction,” even as it acknowledged that § 1028A’s
abbreviated list of predicate offenses “is one reason why
§ 1028A carries a harsher sentence” than the identity fraud
statute. Id. at 757. The Seventh Circuit further cited to the
statutory caption—Aggravated Identity Theft—and the Rule
of Lenity to support its conclusion that “another person”
applies only to a person who did not consent to the
information’s use. Id. at 756–58.
Gagarin argues that because Gilroy requested that
Gagarin file an insurance application for her, under Spears
the “another person” element of aggravated identity theft is
not satisfied here. 2 But following Spears to so hold would
conflict with our precedent in Osuna-Alvarez. Interpreting
“another person” to mean “a person who did not consent to
the use of the means of identification” contradicts our
holding that, “regardless of whether the means of
identification was stolen or obtained with the knowledge and
2
In United States v. Maciel-Alcala, we considered another aspect of
the term “another person”—specifically, whether “another person”
“encompass[es] both living and deceased persons.” 612 F.3d 1092,
1100–01 (9th Cir. 2010). We concluded that it applies to either “so long
as the person is an actual person.” Id. at 1101 (citing Flores-Figueroa v.
United States, 556 U.S. 646, 654 (2009), which referred to “another
person” as a “real person” in determining the scope of § 1028A’s
“knowledge” requirement); see also United States v. Doe, 842 F.3d
1117, 1119–20 (9th Cir. 2016) (“To prove a violation of § 1028A, the
Government must prove . . . [t]he defendant knew the means of
identification belonged to a real person . . . .”). Gagarin does not dispute
that Gilroy is covered by this aspect of what it means to be “another
person.”

14a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 15 of 25

UNITED STATES V. GAGARIN

15

consent of its owner, the illegal use of the means of
identification alone violates § 1028A.” Osuna-Alvarez,
788 F.3d at 1185–86.
Under the Seventh Circuit’s
construction, that case would have been wrongly decided,
because it affirmed the defendant’s conviction despite the
fact that the defendant had permission to use his brother’s
passport. See id. 3
Nor are we convinced by the interpretive analysis of
Spears on its own terms. The phrase “another person” does
not appear particularly ambiguous on its face, especially
when we have already determined the phrase refers to
another “actual person.” Maciel-Alcala, 612 F.3d at 1101.
The plain reading of “another person” seems to us to be an
actual “person other than the defendant.” Contra Spears,
729 F.3d at 756 (rejecting this reading). Since “[a] statute’s
caption . . . cannot undo or limit its text’s plain meaning,”
Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241,
242 (2004), § 1028A’s caption of “Aggravated Identity
Theft” does not alter the plain meaning of “another person.”
Recourse to the Rule of Lenity is not necessary because
“another person” is unambiguous.
In summary, even if Gagarin had Gilroy’s consent, we
follow our circuit precedent to hold that Gagarin used the
In Osuna-Alvarez, we cited the panel opinion in Spears, which was
vacated by the Seventh Circuit’s en banc decision, as consistent with our
holding regarding “without lawful authority.” See 788 F.3d at 1185. We
did not, however, indicate that the Spears en banc opinion was consistent
with our holding. Today we recognize that it would not be workable to
adopt both the Spears en banc interpretation of “another person” and the
Osuna-Alvarez interpretation of “without lawful authority.” That the
cases interpreted different words in the statute cannot obscure that
Spears made available a consent defense that Osuna-Alvarez squarely
rejected.
3

15a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 16 of 25

16

UNITED STATES V. GAGARIN

means of identification of “another person” by using the
identification of another “actual person.”
III
Gagarin challenges the district court’s application of a
three-level “manager or supervisor” role sentencing
enhancement, pursuant to § 3B1.1(b) of the United States
Sentencing Guidelines. “A mistake in calculating the
recommended Guidelines sentencing range is a significant
procedural error that requires us to remand for
resentencing.” United States v. Munoz-Camarena, 631 F.3d
1028, 1030 (9th Cir. 2011). “[A]s a general rule, a district
court’s application of the Sentencing Guidelines to the facts
of a given case should be reviewed for abuse of discretion.”
United States v. Gasca-Ruiz, 852 F.3d 1167, 1170 (9th Cir.
2017) (en banc), cert. denied, 138 S. Ct. 229 (2017).
Although “[i]t is not necessary that the district court make
specific findings of fact to justify the imposition of the role
enhancement,” there must be evidence in the record to
support the enhancement. United States v. Holden, 908 F.3d
395, 401 (9th Cir. 2018) (quoting United States v. Whitney,
673 F.3d 965, 975 (9th Cir. 2012)), cert. denied, 139 S. Ct.
1645 (2019).
To qualify for a three-level sentencing enhancement
under § 3B1.1(b), a defendant must have managed or
supervised one or more other “participants” in an extensive
criminal activity. 4 United States v. Gadson, 763 F.3d 1189,
1222 (9th Cir. 2014). A participant is a person “who [is]
criminally responsible for the commission of the offense, but
Gagarin does not dispute that the conspiracy to defraud AIL
involved five or more participants or was otherwise extensive, as
required for § 3B1.1 to apply.
4

16a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 17 of 25

UNITED STATES V. GAGARIN

17

[who] need not have been convicted.” Id. (internal quotation
marks and citation omitted).
In determining by a
preponderance of the evidence whether the enhancement
applies, the district court considers factors such as:
the exercise of decision making authority, the
nature of participation in the commission of
the offense, the recruitment of accomplices,
the claimed right to a larger share of the fruits
of the crime, the degree of participation in
planning or organizing the offense, the nature
and scope of the illegal activity, and the
degree of control and authority exercised
over others.
U.S.S.G. § 3B1.1 cmt. n.4; Gadson, 763 F.3d at 1222. In
particular, “there must be evidence that the defendant
exercised some control over others involved in commission
of the offense [or was] responsible for organizing others for
the purpose of carrying out the crime.” Gadson, 763 F.3d at
1222 (quoting United States v. Riley, 335 F.3d 919, 929 (9th
Cir. 2003)). The role enhancement cannot apply if the
defendant and the other participant are merely “co-equal
conspirators.” Holden, 908 F.3d at 402.
The district court did not abuse its discretion because
“evidence in the record supports an inference that [Gagarin]
exercised the requisite degree of control” over at least one
criminally responsible participant, Reza Zabihi. Gadson,
763 F.3d at 1222. There is no dispute that Zabihi, who joined
the San Jose office of JFA as an intern a few months before
the initiation of the conspiracy, was a criminally responsible
participant in the fraudulent scheme. At the time of the
offenses, Zabihi served as a sales agent of AIL policies and
as an unofficial personal assistant to Halali, even as Zabihi

17a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 18 of 25

18

UNITED STATES V. GAGARIN

held the “joke” title of HR manager. On many occasions,
Zabihi complied with Halali’s instructions to “Go get me
two free accounts,” which Zabihi knew meant unused bank
accounts that could be used to pay fraudulent policies.
Although Zabihi principally answered to Halali, Gagarin
ran the San Jose office when Halali was absent and was thus
in charge of Zabihi during those times. That both Gagarin
and Zabihi took instructions from Halali does not mean that
they were “co-equal conspirators.” See U.S.S.G. § 3B1.1
cmt. n.4 (“There can, of course, be more than one person
who qualifies as a leader or organizer of a criminal
association or conspiracy.”); see also Holden, 908 F.3d
at 402–03 (overturning the imposition of a sentencing
enhancement where the district court expressly determined
that the only two conspirators were “co-equal” but
nonetheless impermissibly imposed a role enhancement). In
addition to running the office in Halali’s place, Gagarin also
guided Zabihi through actions to further the conspiracy. On
at least one occasion, she instructed Zabihi to “give [her] two
bank accounts” for use in paying premiums on fraudulent
policies. Zabihi also testified that he gave Gagarin Google
Voice phone numbers for her to use on applications as the
numbers for fake insurance applications. Cross-examination
of Zabihi, which showed that he had neglected to inform
investigators of Gagarin’s role in the conspiracy on multiple
occasions, also may have created a reasonable inference that
Zabihi’s testimony was less than forthcoming about the
extent of Gagarin’s involvement. On these bases, enough
evidence in the record existed for the district court to infer,
by a preponderance of the evidence, that Gagarin exercised
control over Zabihi, a criminally responsible participant in
the conspiracy. Gadson, 763 F.3d at 1222. We hold that the
district court did not abuse its discretion and commit

18a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 19 of 25

UNITED STATES V. GAGARIN

19

significant procedural error by imposing a three-level
“manager or supervisor” enhancement.
IV
The legality of a restitution order is reviewed de novo,
United States v. Galan, 804 F.3d 1287, 1289 (9th Cir. 2015),
as is the district court’s “valuation methodology,” United
States v. Berger, 473 F.3d 1080, 1104 (9th Cir. 2007). If
“the order is within statutory bounds,” then the restitution
calculation is reviewed for abuse of discretion, with any
underlying factual findings reviewed for clear error. Galan,
804 F.3d at 1289. We also review a district court’s decision
to impose joint and several liability for abuse of discretion.
United States v. Booth, 309 F.3d 566, 576 (9th Cir. 2002).
A
Under the Mandatory Victims Restitution Act (MVRA),
which applies “in all sentencing proceedings for convictions
of . . . an offense against property under this title . . .
including any offense committed by fraud or deceit,”
18 U.S.C. § 3663A(c)(1)(A)(ii), a court must order
restitution to each victim in the full amount of the victim’s
losses, 18 U.S.C. § 3664(f)(1)(A). Because “[t]he purpose
of restitution is to put the victim back in the position he or
she would have been but for the defendant’s criminal
conduct,” United States v. Gossi, 608 F.3d 574, 581 (9th Cir.
2010), the “amount of restitution is limited to the victim’s
‘actual losses’ that are a direct and proximate result of the
defendant’s offense,” United States v. Thomsen, 830 F.3d
1049, 1065 (9th Cir. 2016) (quoting United States v. Eyraud,
809 F.3d 462, 467 (9th Cir. 2015)). Actual loss represents
the difference between “(1) the loss [the victim] incurred
because of the unlawful conduct, [and] (2) the loss the
[victim] would have incurred had [defendant] acted

19a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 20 of 25

20

UNITED STATES V. GAGARIN

lawfully.” United States v. Bussell, 504 F.3d 956, 965 (9th
Cir. 2007).
A district court is to resolve disputes as to the proper
amount of restitution by a preponderance of the evidence.
18 U.S.C. § 3664(e). Although the Government bears the
initial burden of proving the loss amount, “[t]he question of
who bears the burden for establishing a right to statutory
offset is . . . left to the court’s determination of what ‘justice
requires.’” United States v. Crawford, 169 F.3d 590, 593 n.2
(9th Cir. 1999); see 18 U.S.C. § 3664(e) (for matters other
than proving the loss amount or the defendant’s financial
resources, the burden “shall be upon the party designated by
the court as justice requires”). For that reason, we have
upheld a restitution order where “it appears that the district
court placed this burden on the defendant.” Crawford,
169 F.3d at 593 n.2; accord United States v. Serawop,
505 F.3d 1112, 1127 (10th Cir. 2007).
Gagarin asserts that the district court employed an
unlawful valuation methodology or at least abused its
discretion by choosing not to deduct the value of
Defendants’ “back-end” accounts from the restitution award.
As described earlier, these accounts contained the ongoing
earnings from commissions not yet paid through advances,
minus the value of any advances that exceeded the agents’
actual earnings, e.g., because the policyholder stopped
paying premiums before the end of the period for which the
advance was made. Agents were permitted to collect from
these back-end accounts upon leaving the company, so long
as they were not fired for cause, their interest had vested, and
payments continued to be made on the policies that the
agents had sold. Gagarin contends that these back-end
accounts were real, vested assets, to which Defendants
would have been entitled had they acted lawfully, and

20a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 21 of 25

UNITED STATES V. GAGARIN

21

therefore that the value of the accounts should be deducted
from the restitution amount in accordance with Bussell,
504 F.3d at 965.
There is no indication, however, that the district court
employed an erroneous valuation methodology that focused
on a criterion other than the actual losses of the victim.
Rather, the court chose not to deduct the value of the backend accounts because of its conclusion that the accounts
were only “estimates which do not affect the calculation of
the loss here,” relying in part on the conclusions of the
Presentence Report. Since the district court applied the
proper standard, we review its determination of the amount
of loss for only clear error. Galan, 804 F.3d at 1289.
Because “it appears that the district court placed [the]
burden [of establishing the right to a deduction] on the
defendant,” Crawford, 169 F.3d at 593 n.2, Defendants had
to prove by a preponderance of the evidence that they would
have been entitled to the value of the back-end accounts had
they acted lawfully. See Bussell, 504 F.3d at 965. Although
Defendants’ counsel elicited an isolated acknowledgment
that an agent could be paid the value of the back-end
accounts upon termination if “customers continue to pay
premiums” and “if the agent was vested,” the weight of the
evidence characterized the back-end accounts not as actual,
vested entitlements, but rather as projections of the present
value of future commissions, “if all necessary criteria were
met.” Defendants did not show that all necessary criteria
were met. For example, it is far from clear that, had
Defendants not committed the crimes that caused them to be
fired for cause, they would have eventually left AIL in good
standing and would have met the necessary criteria to be paid
from the back-end accounts. See Serawop, 505 F.3d at 1127
(holding that a defendant could not prove entitlement to a

21a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 22 of 25

22

UNITED STATES V. GAGARIN

deduction based on speculative assumptions). The district
court did not commit clear error by finding that Defendants
had not met their burden and that the back-end accounts were
“estimates which do not affect the calculation of the loss
here.” As a result, we hold that the district court did not
abuse its discretion by declining to deduct the purported
value of the back-end accounts from the restitution award.
B
Gagarin’s remaining claims lack merit. The MVRA
expressly permits the imposition of joint and several
liability, 18 U.S.C. § 3664(h) (“the court may make each
defendant liable for payment of the full amount of
restitution”), and Gagarin cites no authority that reversed as
abuse of discretion a district court’s imposition of joint and
several liability in this context. Since the “court knew it had
[the] option” to apportion the restitution award among the
Defendants, “but decided not to exercise it,” we decline to
second-guess the court’s decision. Booth, 309 F.3d at 576.
Gagarin’s contention that the restitution schedule is
internally inconsistent is also unavailing. Gagarin relies on
United States v. Holden, in which we vacated and remanded
a restitution order because the restitution schedule’s
requirement of both a “[l]ump sum payment” due
immediately and a schedule of small payments to be made
during the defendant’s period of incarceration was internally
inconsistent. 908 F.3d at 403. But in Holden, the imposition
of installment payments during incarceration was not
contingent, by the schedule’s terms, on non-payment of the
lump sum. The restitution schedule in this case, in contrast,
is implicitly conditional: It specifies that a lump sum
payment is “due immediately,” but that the “balance”—i.e.,
any portion of that single restitution amount that is not in fact
paid “immediately”—is “due . . . in accordance with” an

22a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 23 of 25

UNITED STATES V. GAGARIN

23

installment plan. Gagarin contends that the restitution
schedule in Holden used the same “balance due” conditional
language as the district court used here with respect to the
defendant’s post-incarceration payment schedule. But
Holden vacated the restitution schedule on account of the
“unconditional schedule of payments during the period of
incarceration.” Id. at 404 (emphasis added). And unlike in
Holden, where the district court expressly found that the
defendant lacked ability to pay according to the schedule, id.,
here there has been no such finding. We conclude that there
was no error in the district court’s restitution order.
V
For the foregoing reasons, we affirm the aggravated
identity theft conviction, the sentencing enhancement, and
the restitution order.
AFFIRMED.

FRIEDLAND, Circuit Judge, concurring except as to the
penultimate paragraph of Part II.C:
I concur in Judge Gould’s thoughtful opinion as to all
issues but one: I am disinclined to criticize “on its own
terms” the analysis of the unanimous en banc Seventh
Circuit in United States v. Spears, 729 F.3d 753 (7th Cir.
2013).
I agree that Spears’s holding is irreconcilable with this
court’s holding in United States v. Osuna-Alvarez, 788 F.3d
1183 (9th Cir. 2015). I also agree that, under a faithful
application of our court’s precedent, Gagarin’s conviction
must be affirmed. In my view, however, Spears adopts a

23a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 24 of 25

24

UNITED STATES V. GAGARIN

reasonable limiting interpretation of a statute that could
otherwise be stretched to cover situations far afield from
what its title says it is about: aggravated identity theft, not
mere identity fraud.
Spears explains that there is a risk, in reading the
ambiguous text of 18 U.S.C. § 1028A too broadly, of
sweeping in conduct involving a “means of identification”
that is hardly stolen from a victim; the identity might, under
some interpretations of the statute, belong even to a willing
participant in the predicate offense. See Spears, 729 F.3d
at 756 (describing an interpretation of the statute that would
cover “every time a tax-return preparer claims an improper
deduction”). By holding that the term “another person”
describes only “a person who did not consent to the use of
the ‘means of identification,’” Spears provides one way to
make sure courts do not “convert most identity fraud into
identity theft and add a mandatory, consecutive, two-year
term to every conviction, even though [the identity fraud
statute] lacks any equivalent sentencing provision.” See id.
at 757–58 (emphases added). Indeed, although our holding
in Osuna-Alvarez is irreconcilable with Spears’s holding,
our later caselaw has, relying on language in § 1028A that
was not analyzed in either of those cases, incorporated
limitations that flow from the same concerns that animated
the Seventh Circuit’s decision in Spears. See United States
v. Hong, 938 F.3d 1040, 1051 (9th Cir. 2019) (rejecting a
broad interpretation of the term “use” based on the First
Circuit’s analysis in United States v. Berroa, 856 F.3d 141
(1st Cir. 2017), which in turn relied on Spears).
If this appeal had arisen on a blank slate, I would have
given serious consideration to adopting Spears’s holding.
And for the reasons expressed in Spears, I believe there may
be a need in future cases to adopt interpretations of the

24a

Case: 18-10026, 02/13/2020, ID: 11595859, DktEntry: 47-1, Page 25 of 25

UNITED STATES V. GAGARIN

25

identity theft statute that help prevent it from being read to
impose harsh sentences for offenses that do not actually
involve identity theft. I therefore refrain from criticizing our
sister circuit’s sensible attempt to interpret this puzzling
statute.

25a

Case: 18-10026, 10/01/2020, ID: 11843550, DktEntry: 61, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 1 2020
MOLLY C. DWYER, CLERK

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-10026

U.S. COURT OF APPEALS

D.C. No. 3:14-cr-00627-SI-4
Northern District of California,
San Francisco

v.
KAREN GAGARIN,

ORDER

Defendant-Appellant.
Before: GOULD, BEA, and FRIEDLAND, Circuit Judges.
The panel has voted to deny the petition for rehearing en banc. The full court
has been advised of the petition for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed. R. App. P. 35. The petition for
rehearing en banc is denied.

26a

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

2017 WL 3232566
Only the Westlaw citation is currently available.
United States District Court, N.D. California.
UNITED STATES of America, Plaintiff,
v.
Behnam HALALI, et al., Defendants.
Case No. 14-cr-00627-SI-1
|
Signed 07/28/2017
Attorneys and Law Firms
Kim Allison Berger, United States Attorney's Office, San Francisco, CA, for Plaintiff.
Candis Lea Mitchell, Office of the Federal Public Defender, San Francisco, CA, for Defendants.

ORDER DENYING DFEENDANTS' POST-TRIAL MOTIONS
Re: Dkt. Nos. 196, 198, 199, 200, 228, 232
SUSAN ILLSTON, United States District Judge
*1 On July 27, 2017, the Court heard argument on defendants' post-trial motions. For the reasons set forth below, the Court
DENIES the motions.

BACKGROUND
On December 16, 2014, the government filed a 25-count indictment against defendants Ernesto Magat, Behnam Halali, Kraig
Jilge, Karen Gagarin and Alomkone Soundara a/k/a Alex Soundara. Dkt. No. 1. The indictment alleged that, from in or about
September 2011 through February 2012, defendants “did knowingly and willfully conspire and agree with each other ... to
devise, participate in, and execute a scheme to defraud [American Income Life Insurance Company] (“AIL”), and to obtain
money from AIL by means of materially false and fraudulent pretenses, representations, and promises, and by omitting and
concealing material facts.” Dkt. No. 1 ¶ 8. The indictment also alleged that the defendants executed the scheme by, among other
things, submitting applications for life insurance on behalf of individuals who did not know that a policy was applied for or
issued in their name and/or did not want a life insurance policy. Id.
On March 13, 2017, following a four week trial, a jury convicted defendants Halali, Magat, and Gagarin of conspiracy to
commit wire fraud in violation of 18 U.S.C. § 1349 (Count One), wire fraud in violation of 18 U.S.C. § 1343 (Counts Two
through Fifteen), and aggravated identity theft in violation of 18 U.S.C. § 1028A(a)(1) (Counts Twenty-one through Twentyfour). See Dkt. No. 187. 1
1

Jilge and Soundara pled guilty prior to trial.

27a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

Desiherey Dacuycuy Ortega was one of the 27 witnesses called by the government at trial. 2 Ortega stated that she assisted
defendants and their co-schemers with opening hundreds of bank accounts that were used in connection with the charged wire
fraud and identity theft. See generally Dkt. No. 231 at 6-24. Additionally, Ortega testified regarding defendants' efforts to
conceal their ownership of these accounts after AIL uncovered the fraudulent conduct. Id. at 26-57.
2

Magat's motion states that Ortega testified pursuant to a proffer agreement and implied grant of immunity. The record
shows that Ortega testified but the government did not grant her immunity for her cooperation.

On direct examination by the government, Ortega admitted to having made false statements in the past. She admitted to drafting
letters at defendant Magat's request that contained false statements. Id. at 43-53. She also admitted to lying to agents of the
Federal Bureau of Investigation during their investigation of this matter. Id. at 57-58. Ortega admitted that she did not tell her
supervisors that she wrote the false letters regarding Magat's accounts and that she “knew it was wrong.” Id. at 58.
On May 1, 2017, counsel for Wells Fargo contacted government counsel and notified them for the first time that Wells Fargo
determined that Ortega had embezzled over $40,000 from the bank while working as a branch manager in late 2016 and
early 2017. Dkt. No. 228-1. On May 11, 2017, the bank's counsel sent a letter to the government detailing the findings of its
investigation into Ortega's conduct. Id. The next day, the government disclosed to defense counsel the letter from Wells Fargo.
Dkt. No. 237 at 5. According to that letter, on March 16, 2017, Wells Fargo identified approximately $10,000 in suspicious
general ledger entries processed at the Stanford Shopping Center and Midtown Palo Alto branches in Palo Alto, California in
January 2017. Dkt. No. 228-1 at 1. Wells Fargo then conducted a broader review of general ledger entries for these branches
and identified a set of suspicious general ledger entries totaling $41,849.93, which were approved by Ortega and processed by
multiple tellers between August 2016 and February 2017. Id. After being interviewed by the bank, Ortega admitted that she
approved the entries and admitted that she withdrew the funds. Id. Wells Fargo fired Ortega on March 27, 2017. Id. at 2. None
of this information was known to the parties or the jury during the trial. Id.
*2 Now before the Court are defendants' motions for judgment of acquittal of certain counts, and defendants' motions for a
new trial based upon the newly discovered evidence regarding Ms. Ortega.

LEGAL STANDARDS
I. Rule 29
Rule 29 of the Federal Rules of Criminal Procedure requires the Court, on a defendant's motion, to “enter a judgment of acquittal
of any offense for which the evidence is insufficient to sustain a conviction.” Fed. R. Crim. P. 29(a).
The Court's review of the constitutional sufficiency of evidence to support a criminal conviction is governed by Jackson v.
Virginia, 443 U.S. 307 (1979), which requires a court to determine “whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” Id. at 319 (emphasis in original); see also McDaniel v. Brown, 558 U.S. 120, 133 (2010). Accord United States v. Nevils,
598 F.3d 1158, 1163-64 (9th Cir. 2010) (en banc). This rule establishes a two-step inquiry:
First, a ... court must consider the evidence presented at trial in the light most favorable to the prosecution.... [And s]econd,
after viewing the evidence in the light most favorable to the prosecution, the ... court must determine whether this evidence, so
viewed, is adequate to allow “any rational trier of fact [to find] the essential elements of the crime beyond a reasonable doubt.”
Nevils, 598 F.3d at 1164 (quoting Jackson, 443 U.S. at 319) (final alteration in Nevils).
II. Rule 33

28a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

“Upon the defendant's motion, the court may vacate any judgment and grant a new trial if the interest of justice so requires.”
Fed. R. Crim. P. 33(a). The Ninth Circuit described the standard for granting a new trial in United States. v. A. Lanoy Alston,
D.M.D., P.C., 974 F.2d 1206 (9th Cir. 1992), which it reaffirmed in United States v. Kellington, 217 F.3d 1084 (9th Cir. 2000):

[A] district court's power to grant a motion for a new trial is much broader than its power to grant a motion
for judgment of acquittal. The court is not obliged to view the evidence in the light most favorable to
the verdict, and it is free to weigh the evidence and evaluate for itself the credibility of the witnesses....
If the court concludes that, despite the abstract sufficiency of the evidence to sustain the verdict, the
evidence preponderates sufficiently heavily against the verdict that a serious miscarriage of justice may
have occurred, it may set aside the verdict, grant a new trial, and submit the issues for determination
by another jury.

Kellington, 217 F.3d at 1097 (internal quotation marks and citations omitted).
However, the Court's discretion is not unconstrained. Under Rule 33, the Court should grant a new trial “only in exceptional
cases in which the evidence preponderates heavily against the verdict.” United States v. Showalter, 569 F.3d 1150, 1157 (9th Cir.
2009) (quoting United States v. Pimental, 654 F.2d 538, 545 (9th Cir. 1981)). “The defendant bears the burden of proving that he
is entitled to a new trial under Rule 33, and before ordering a new trial pursuant to Rule 33, a district court must find that there is
a real concern that an innocent person may have been convicted.” United States v. McCourty, 562 F.3d 458, 475 (2d Cir. 2009).

DISCUSSION
I. Motions for judgment of acquittal
*3 Defendants Halali, Magat and Gagarin each challenge their convictions for aggravated identity theft (Counts 21, 22 and
24), and Gagarin additionally challenges one wire fraud count (Count 10) related to Gilroy's policy.
A. Wire Fraud
Gagarin argues that she should either be acquitted or receive a new trial based on insufficient evidence of wire fraud for Count
10. Gagarin argues that “in order to find guilt pursuant to [Instructions 14 and 18], the jury would have to find that Ms. Gagarin
and Ms. Gilroy intended the application to be submitted without Ms. Gilroy's intention to receive insurance.” Dkt. No. 200
at 9. 3 Gagarin argues that the jury must have disregarded the jury instructions because the evidence at trial showed that Ms.
Gilroy intended to apply for insurance, she knew she was applying for insurance, she knew insurance was issued in her name,
and she wanted a life insurance policy.
3

Instruction 18 instructed the jury on the elements of wire fraud, and Instruction 14 provided the instruction on conspiracy
to commit wire fraud. Instruction 14 described the “scheme to defraud” as “among other things, submitting applications
for life insurance on behalf of individuals who did not know that a policy was applied for or issued in their name and/
or did not want a life insurance policy, and then shared the commissions and bonuses issued by AIL in connection with
those fraudulent policies.” Dkt. No. 178.
The government contends that defendant's argument is misplaced because defendant focuses on Instruction 14's language
describing the scheme to defraud, which is not present in Instruction 18. The government also argues that even if the
limiting language from Instruction 14 were deemed to apply to the substantive wire fraud counts, the jury's verdict is
not contrary to the charged scheme. The Court agrees with this latter argument and therefore finds it unnecessary to
determine whether Instruction 14 must be read in conjunction with Instruction 18.

29a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

The government argues there was sufficient evidence from which the jury could convict Gagarin of wire fraud related to Gilroy's
policy. The Court agrees with the government and finds that taken in the light most favorable to the government, the evidence
was sufficient to find that Gagarin was guilty of Count 10. Gilroy testified that when the application was submitted, she was
unemployed and unable to pay the cost of the premiums on her own. Gilroy also testified that she instructed Gagarin to include
false information regarding her employment on the application, and she admitted that she lied about her annual salary when
she took the required medical exam. The evidence also showed that the premiums on Gilroy's policy were paid by an account
in Gagarin's name that was also used to pay the premiums on another fraudulent policy. Ex. 564 at 5 (showing payment of
premiums for policies in the name of Melissa Gilroy and Christian DeJesus). Although Gilroy testified that she wanted a life
insurance policy and intended to pay for it, the jury could have disbelieved this testimony. The jury could have concluded that
Gilroy falsely claimed she wanted insurance in order to cover for her cousin, Gagarin, or that Gilroy was paid to provide her
information and take a medical exam, as other witnesses testified they had. 4 Because there was ample evidence to support the
wire fraud conviction, the Court also finds no basis to grant Gagarin a new trial on that charge.
4

Gilroy testified under a grant of immunity. Jury Instruction No. 8 directed the jury that they may “believe everything
a witness says, or part of it, or none of it.” Further, Jury Instruction No. 9 specifically informed the jury that Gilroy
received immunity, that the jury should “consider the extent to which or whether the witness's testimony may have been
influenced” by that immunity, and that the jury therefore “should examine the testimony of ... Gilroy ... with greater
caution than that of other witnesses.”

B. Aggravated identity theft
*4 To convict defendants of aggravated identity theft in violation of 18 U.S.C. § 1028A, the government needed to prove that
each defendant (1) knowingly transferred, possessed, or used, without legal authority, a means of identification of a real person,
(2) the defendant knew that the means of identification belonged to a real person, and (3) the defendant did so in during and in
relation to felony violations of 18 U.S.C. §§ 1343 or 1349 (conspiracy to commit wire fraud or wire fraud).

1. Halali
Halali argues that there was no evidence that he ever used Eleanor Hale's identification information or submitted any documents
to anyone falsely identifying himself as Hale. Halali argues that the evidence showed that Hale provided her information to
Betti, and that Betti is the one who wrote and submitted Hale's life insurance application to AIL.
The Court disagrees and DENIES Halali's motion for judgment of acquittal. Viewing the evidence in the light most favorable
to the government, the evidence showed that Betti provided individuals' personal information to Halali, either by giving the
information to him directly or by turning the information in to a submitting desk in the San Jose office. The jury could
have believed that Betti provided Hale's information to Halali by leaving that information at the submitting desk. Betti also
testified that the application he prepared for Hale did not include her beneficiary information, premium information, or banking
information, and yet the final application submitted to AIL included this information, including the information for the Wells
Fargo account that was actually owned by Halali. The evidence also showed that premium payments for Hale's policy were
made from two accounts owned by Halali. There was considerable evidence from which the jury could conclude that Halali
was guilty of aggravated identity theft and/or aiding and abetting aggravated identity theft.

2. Magat
Magat argues that the government did not prove that he knew that the information submitted with Mosqueda's application
belonged to someone else or that Mosqueda did not authorize using her identity to buy life insurance. Magat argues that there

30a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

is no evidence that when the policy was submitted he was personally involved in the application or the verification process
surrounding the policy.
The Court disagrees and DENIES Magat's motion for judgment of acquittal. Several witnesses testified that Magat was involved
in the “secret shopper” program in which college students from Sacramento State were recruited to take medical exams and then
the information from those exams was used to submit life insurance applications without the students' knowledge or consent.
Mosqueda was a student at Sacramento State, and she testified her sorority sister, who also was Magat's co-worker, recruited her
to participate in the secret shopper program. Magat owned the bank account that paid for the premiums on Mosqueda's policy,
and the jury could reasonably have concluded that he was paying for the premiums because Mosqueda had not authorized the
application for life insurance. In addition, on November 11, 2011, Ha Nguyen used Ernesto Magat's email to send a “JUICY.xlxs”
spreadsheet which listed Mosqueda's name, phony address, phony phone number, Ernesto Magat's bank account number xx6932,
and a space to indicate that four months of premiums had been paid. Ha Nguyen testified that she created the spreadsheet at
Magat's direction to track the “junk” or “juice” business, and that she and Ernesto Magat had discussed the contents of that
spreadsheet. There was also testimony that in January 2012 as the fraudulent scheme was coming to light, Ernesto Magat
changed the name on the xx6932 account to “MIA Insurance Group.” The jury could reasonably conclude from all of this
evidence that Ernesto Magat was guilty of aggravated identity theft and/or aiding and abetting aggravated identity theft.

3. Gagarin
*5 Gagarin argues that the government did not prove that Gagarin “used” Melissa Gilroy's identification because Gagarin never
attempted to act on Gilroy's behalf by actively employing Gilroy's identification. Gagarin argues that unlike a case involving
stolen identities, here Ms. Gilroy testified that she willingly gave her information to Gagarin in order to submit a life insurance
application on her behalf, and that she wanted a policy. Gagarin urges this Court to “revisit” the Ninth Circuit's decision in
United States v. Osuna-Alvarez, 788 F.3d 1183 (9th Cir. 2016), and to instead follow the Sixth Circuit's decision in United States
v. Medlock, 792 F.3d 700 (6th Cir. 2015).
In Osuna-Alvarez, the Ninth Circuit upheld a conviction for aggravated identity theft where the defendant used his identical
twin's passport to enter the country. The defendant argued that he had his brother's permission to use the passport, and therefore
that his use was not “without lawful authority.” The Ninth Circuit rejected this argument, finding that the language of the statute
was unambiguous:

By its terms, § 1028A explicitly covers a defendant who “uses” a means of identification “without
lawful authority.” This language clearly and unambiguously encompasses situations like the present,
where an individual grants the defendant permission to possess his or her means of identification, but the
defendant then proceeds to use the identification unlawfully.... Thus, regardless of whether the means of
identification was stolen or obtained with the knowledge and consent of its owner, the illegal use of the
means of identification alone violates § 1028a.

Osuna-Alvarez, 788 F.3d at 1185-86. Gagarin argues that Osuna-Alvarez was “wrongly decided as it applies to this case” because
Ms. Gilroy gave permission to Gagarin to use her identification information, and Gagarin did not use Ms. Gilroy's identity in
the sense of trying to shield Gagarin's own identity when committing a crime.
Gagarin argues that this Court should adopt the narrower construction of “use” adopted by the Sixth Circuit in Medlock. In
that case, the defendants operated a non-emergency ambulance company that transported Medicare patients to kidney-dialysis
appointments. The defendants submitted claims for Medicare reimbursements containing the identification information of the
patients, and the claims falsely stated that the patients were transported by stretcher when they were not. The government

31a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

5

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

alleged that the defendants “used” the name and Medicare Identification Numbers of the patients when they submitted the
reimbursement claims, and that they did so without lawful authority because the claims falsely stated that stretchers were
required for transport. In addition, the government alleged that one of the defendants “used” the signature of a doctor in order
to forge a medical certification.
On appeal, the Sixth Circuit reversed the convictions which were based upon using the identification of patients in the
reimbursement claims. The court found that the Medlocks “misrepresented how and why the beneficiaries were transported,
but they did not use those beneficiaries' identities to do so.” Id. at 707 (emphasis in original). The court noted that “[t]he
Medlocks did transport the specific beneficiaries whose names they entered on the forms; they lied only about their eligibility
for reimbursement for the service. There was nothing about those particular beneficiaries, rather than some other lawful
beneficiaries of Medicare, that entitled them to reimbursed rides.” Id. at 706. In contrast, the court upheld the conviction for
aggravated identity theft based upon Kathy Medlock's forging a physician's signature and thus using his identity to secure
reimbursement fraudulently for unnecessary ambulance transports. Id. at 712.
*6 The government argues that as with the sustained conviction in Medlock, there was sufficient evidence for the jury
to conclude that Gagarin forged Gilroy's signature on the application. The Court agrees and DENIES Gagarin's motion for
judgment of acquittal. As the government notes, Gilroy testified that she did not sign or type her name in either of the two places
in which her signature appears on the application. Although Gagarin argues that she had Gilroy's authorization to submit the
application, as discussed above, the jury could have concluded from the evidence that Gagarin submitted the application without
Gilroy's knowledge. The evidence showed that the application contained numerous false statements with regard to Gilroy, that
Gilroy was unemployed at the time the application was filed, and that Gagarin (and not Gilroy, her mother or her boyfriend)
paid the premiums. On this record, the jury could have reasonably concluded that Gagarin “used” Gilroy's forged signatures
as part of the wire fraud scheme. See United States v. Blixt, 548 F.3d 882, 886 (9th Cir. 2008) (“[A]s a matter of law, forging
another's signature constitutes the use of that person's name for the purpose of applying the Aggravated Identity Theft statute.”);
see also United States v. Bercovitch, 615 Fed.Appx. 416 (9th Cir. Aug. 25, 2015) (reversing dismissal of aggravated identity
theft counts and holding that under Osuna-Alvarez, indictment need not allege that defendant transferred, possessed, or used
another person's identification without that person's consent). 5
5

In United States v. Bercovitch, No. 3:13-cr-00662 RS, the government alleged that the defendants devised and executed a
scheme to prepare and file fraudulent federal income tax returns on behalf of prison inmates, using the inmates' personal
information. The district court dismissed the aggravated identity theft counts on the ground that the indictment did
not allege that the defendants used the inmates' identifications without their consent. The Ninth Circuit reversed in an
unpublished decision.

II. Motions for a new trial
Defendants contend that the Court should grant a new trial because of newly discovered evidence concerning Ortega's
embezzlement. 6 Defendants argue that the newly discovered evidence would have impeached Ortega's testimony regarding
the Wells Fargo accounts, including how the accounts were opened and defendants' efforts to “cover up” the fraud.
6

Defendant Magat filed a motion for a new trial based on the newly discovered evidence, and Halali joined in that motion.
Gagarin filed a separate motion for a new trial based on the newly discovered evidence, and she also argues that she
is entitled to a new trial because “the jury easily could have conflated the various different allegations between the
defendants and erroneously convicted Ms. Gagarin though she had no intention to commit wire fraud in submitting the
application for Ms. Gilroy.” Dkt. No. 225 at 9. For the reasons set forth in the prior section, the Court finds that there
was sufficient evidence to convict Gagarin of wire fraud. The Court also finds that the assertion the jury could have
conflated the evidence is speculative and does not warrant a new trial.

The Ninth Circuit has held that to prevail on a Rule 33 motion for new trial based on newly discovered evidence, a defendant
must satisfy each element of a five-part test: “(1) the evidence must be newly discovered; (2) the failure to discover the evidence

32a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

6

United States v. Halali, Not Reported in Fed. Supp. (2017)
2017 WL 3232566

sooner must not be the result of a lack of diligence on the defendant's part; (3) the evidence must be material to the issues at
trial; (4) the evidence must be neither cumulative nor merely impeaching; and (5) the evidence must indicate that a new trial
would probably result in acquittal.” United States v. Harrington, 410 F.3d 598, 601 (9th Cir. 2005) (internal citation omitted).
While “[o]rdinarily, evidence impeaching a witness will not be material ... [i]n some situations, however, the newly-discovered
impeachment evidence may be so powerful that, if it were to be believed by the trier of fact, it could render the witness's testimony
totally incredible.” United States v. Davis, 960 F.2d 820, 825 (9th Cir. 1992). “In such a case, if the witness' testimony were
uncorroborated and provided the only evidence of an essential element of the government's case, the impeachment evidence
would be ‘material.’ ” Id.
*7 The government contends that the newly discovered evidence regarding Ortega does not warrant a new trial because it
is merely impeaching and does not render Ortega's testimony totally incredible. The government also argues that Ortega's
testimony was corroborated by numerous witnesses and documentary evidence, and thus did not provide the only evidence of
an essential element of the government's case. The government asserts that evidence of Ortega's embezzlement is not material
to any issue at trial, and that defendants have not shown that the new evidence would probably result in an acquittal.
The Court agrees with the government. As an initial matter, the Court notes that Ortega admitted in her testimony that: (1) she
prepared letters for Magat which contained false statements; (2) she did not tell her supervisors about these letters and “knew
it was wrong” to have prepared them; and (3) she had lied to the FBI about her interactions with defendants. See Dkt. No. 231
at 43-53, 57-8. Therefore, the jury knew that Ortega had made false statements and prepared false documents in connection
with the scheme before the Court. The Court agrees with the government that it is unlikely that evidence of entirely unrelated
misconduct, engaged in years after the scheme in question, would cause the jury to find Ortega's testimony “totally incredible.”
Significantly, Ortega's testimony was corroborated by the testimony of other witnesses and the documentary evidence admitted
at trial. Ortega's testimony regarding the opening of the bank accounts used by defendants was corroborated by the testimony
of Kraig Jilge, Ha Nguyen, Alex Soundara, and Marion Magat. Id. Jilge and Nguyen both testified about defendants' efforts
to change the names on the accounts. Additionally, Ortega's testimony was corroborated through various bank records (see
generally Trial Ex. 1000 and records cited therein) and e-mails admitted as evidence (see, e.g., Trial Exs. 91, 98, 106, 193, 194,
216, 217, 221, 222, 930, 975, 976). Thus, Ortega's testimony did not provide the only evidence of essential elements of the
government's case. The newly discovered evidence is merely impeaching, and does not warrant the grant of a new trial.
Accordingly, the Court concludes that defendants have failed to meet their burden under Harrington, and the Court DENIES
defendants' motions for a new trial.

CONCLUSION
For the reasons set forth above, the Court DENIES defendants' post-trial motions.
IT IS SO ORDERED.
All Citations
Not Reported in Fed. Supp., 2017 WL 3232566
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

33a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

7

